May 12, 2010

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

MAURA ROBINSON
VICE PRESIDENT, PRICING

WILLIAM R. GILLIGAN
CHIEF POSTAL INSPECTOR

STEVEN J. JUHL
FINANCE MANAGER, WESTERN AREA

SUBJECT: Audit Report – Move Update Program and Investigations
         (Report Number SA-AR-10-001)

This report presents the results of our audit of Move Update Program and investigations
(Project Number 09YG036SA000). Our objectives were to assess internal controls over
the Move Update Program and determine if the Postal Inspection Service conducted
Move Update investigations according to U.S. Postal Service policies and procedures.

We conducted this audit as a result of concerns we received from mailers regarding
Postal Inspection Service Move Update investigations. Specifically, mailers expressed
concerns regarding inconsistent standards and tolerance levels used to assess Move
Update compliance, large mailers being targeted in Move Update investigations,
inappropriate conduct by postal inspectors, and incorrect calculations of revenue
deficiencies. We also reviewed the resolution of cases and settlements resulting from
Move Update investigations. This audit addresses operational and financial risk. See
Appendix A for additional information about this audit and our findings regarding specific
mailer concerns.

Conclusion

Although the costs associated with undeliverable as addressed (UAA) mail exceeded an
estimated $1.5 billion and the discounts associated with Move Update compliance
exceeded $3.5 billion for fiscal year (FY) 2008, the Postal Service did not establish a
sufficient method to evaluate compliance with Move Update standards at acceptance
until 2009, 12 years after Move Update began. Even with this new compliance effort,
many mail acceptance facilities do not have the necessary processing equipment to be
able to assess compliance.
Move Update Program and Investigations                                       SA-AR-10-001



Additionally, compliance standards are not clear and consistent. The tolerance level
established at mail acceptance for addresses that were not appropriately updated is
high, at 30 percent. However, once the Postal Inspection Service establishes
noncompliance with Move Update standards, there is zero tolerance, 100 percent of the
discount is removed, and the mailings are assessed at the First-Class™ single-piece
rate for up to 1 year, regardless of the extent of actual damages to the Postal Service.

To complicate matters further, if a mailer enters into settlement negotiations with
the Postal Service, other items are considered in determining final liability,
including actual damages, mailer intent, and goodwill. For example, the Postal
Service deemed one mailer noncompliant with Move Update standards and assessed
the First-Class single-piece rate for all mailings mailed within a 12-month period,
resulting in a multi-million dollar revenue deficiency. However, the mailer demonstrated
that most of the mail was updated in accordance with Move Update standards. This
revenue deficiency was significantly reduced to a fraction of the original assessment
during the settlement process because the actual damage to the Postal Service was
significantly lower than the amount assessed during the investigation.

We also found that the 21 investigations we reviewed were all treated as administrative
cases, rather than criminal or civil cases. Thus, law enforcement officers who receive
special pay and benefits conducted these administrative investigations when non-law
enforcement personnel could have done this work more economically, and in a less
intimidating environment.

Lastly, nine of 21 cases reviewed resulted in settlement agreements. In our analysis we
found that two of the settlements combined issues unrelated to Move Update (such as a
complaint made by the mailer against the Postal Service). Using the settlement process
to resolve complaints filed by mailers could discourage them from raising concerns and
impact the Postal Service’s ability to improve service and customer relationships.

These control weaknesses and inconsistent treatment of compliance issues have
resulted in significant revenue at risk for the Postal Service, mailer frustration, and
mailer concerns regarding a negative impact on their brand. Further, the Postal Service
is at risk of losing significant future revenue from mailers who are threatening to stop
using the mail to communicate with their customers.




                                            2
Move Update Program and Investigations                                                               SA-AR-10-001



Summary of Results

Controls over Discounts Associated with Move Update Compliance

The Postal Service provided mailers with discounts associated with Move Update
compliance. However, until recently, the Postal Service did not determine whether the
mailings met those standards.1 Postal Service management implemented the Move
Update Program in 1997, but did not develop and implement sufficient internal controls
to evaluate compliance until 12 years later. As a result, we identified $304 million in
revenue at risk2 for FYs 2008 and 2009 because there was no assurance that discounts
provided were warranted.

In October 2008, the Postal Inspection Service’s Los Angeles division conducted an
internal review which identified serious internal control deficiencies with the Move
Update Program that extended beyond noncompliance by mailers. Subsequently, the
Postal Service implemented Performance Based Verifications (PBV) for Move Update
and other enhancements, including policy changes. However, because PBV is only
performed at sites with the Mail Evaluation and Readability Look-Up INstrument
(MERLIN™) system, only about 10 percent of the mail acceptance units will be capable
of performing Move Update assessments. According to the Postal Service, these units
with MERLIN account for approximately 75 percent of business mail revenue. There are
no verification plans for non-MERLIN sites, and those sites without MERLIN will not be
able to assess Move Update compliance.

In addition, the Postal Service does not use clear and consistent standards regarding
tolerance levels to evaluate Move Update compliance. Specifically, the 2009 mail
acceptance process establishes a 30 percent tolerance for mailpieces that do not meet
Move Update standards. Mailers deemed noncompliant are assessed 7 cents for each
mailpiece in excess of the tolerance. The Postal Service initially named the charges
related to the PBV process a “Move Update Noncompliance Charge” and subsequently
changed the name to a “Move Update Assessment Charge.”

However, since 2008 the Postal Inspection Service has been conducting a Move
Update initiative that determines compliance by observing and analyzing return-to-
sender (RTS) mail, reviewing mailing records, and interviewing mailers. If mailers were
deemed noncompliant via an investigation, the Postal Service assessed them for
100 percent of the discounts taken, without regard for any tolerance. If a case goes into
the settlement process, other matters such as mailer intent and actual damages can be
considered.



1
  Postal Service Publication 363, Updating Address Lists is a Smart Move, January 2009, states, “Mailers who plan to
claim discounted First-Class Mail and Standard Mail prices must meet the Move Update standard for updating
addresses.”
2
  Revenue the Postal Service was at risk of losing.




                                                         3
Move Update Program and Investigations                                                                   SA-AR-10-001



Thus, a mailing could meet Move Update standards at acceptance, but be deemed
noncompliant in a subsequent investigation, resulting in significant revenue deficiency
assessments. Further, the methodology the Postal Inspection Service uses does not
reflect actual damages to the Postal Service because it assesses the entire mailing at
the First-Class single-piece rate rather than with the additional cost associated with
processing mailpieces not updated in accordance with Move Update standards. Finally,
assessments made during the investigation can be significantly reduced during the
negotiated settlement process.

Postal Service and Postal Inspection Service officials consider the methodologies used
in investigations and at acceptance to be unrelated. However, mailers have expressed
concern that these procedures are incoherent. Specifically, they do not clearly
distinguish the conditions that subject a mailing to Move Update assessment charges at
acceptance from the conditions that would subject it to the significantly higher penalties
associated with a finding of noncompliance as a result of an investigation. In addition,
mailers were also concerned about the negative impact a federal criminal investigation
could have on their business and their brand.

As a result of this lack of clarity and coherence and the large penalties associated with
noncompliance, mailers are threatening to seek alternative ways to communicate with
their customers, and Postal Service’s customer service goals3 are adversely affected.
See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Business Mail Entry and Payment Technologies, in
coordination with the vice president, Pricing:

     1. Enhance the Move Update program to comprehensively verify compliance at mail
        acceptance and ensure collection of proper postage.

     2. Ensure standards for determining Move Update compliance are consistent and
        clearly communicated to mailers.

Management’s Comments

Management partially agreed with recommendations 1 and 2. Management also
disagreed with the $304 million assets at risk, stating that the calculation as presented
may not be an appropriate measure of assets at risk.

Specifically, although management disagreed with recommendation 1 as stated, they
strongly agreed that it is vitally important to ensure all postage is properly collected at
time of acceptance. Management stated it was not clear whether the U.S. Postal
Service Office of Inspector General (OIG) was suggesting to equip all acceptance sites

3
 Goals include providing consistent experiences across all contact points and convincing many more businesses to
use or expand their use of mail. Further, the Postal Service will work with industry partners to give customers a better
understanding of the steps involved in business mailing.




                                                           4
Move Update Program and Investigations                                         SA-AR-10-001



with MERLIN systems or to limit acceptance at sites with MERLIN only. Management
also stated they plan to implement additional address quality assessments at
acceptance, such as leveraging intelligent mail barcode to expand automated
evaluation of address quality, which will help ensure collection of proper postage at
acceptance. See Appendix F for management’s comments, in their entirety.

Management partially agreed with recommendation 2 and stated they believe standards
for Move Update compliance are clear and have been clearly communicated to mailers.
Management stated they will continue to consistently and extensively communicate to
postal employees and the mailers.

Evaluation of Management’s Comments

Management’s plan to implement additional address quality assessments at acceptance
by May 2011 is consistent with the intent of recommendation 1. While we are not
suggesting increasing MERLIN systems at acceptance sites or centralizing all
acceptance to MERLIN sites, management should explore additional methods and
controls to ensure proper postage is collected at all mail acceptance sites.
Management’s proposal to use IMB to assess mailings at acceptance should help
ensure collection of proper postage.

We disagree that standards for Move Update are clear and consistent. However,
management’s actions to consistently and extensively communicate to postal
employees and mailers should help resolve the issues identified. The OIG plans to
monitor the issues in recommendations 1 and 2, and conduct follow up as necessary.

Regarding our revenue at risk calculation, the Postal Service provided mailers with
discounts associated with Move Update compliance without assessing whether those
mailings were compliant. We used a conservative approach to determine the discounted
postage provided to mailers. We explained our methodology for quantifying revenue at
risk in Appendix C.

Move Update Investigations

In 20 of 21 cases we reviewed, inspectors appropriately established that penalized
mailers were not in compliance with Move Update standards. For the remaining case,
the mailer was deemed noncompliant and assessed 100 percent of the discounts taken
for a 12-month period, resulting in a revenue deficiency over $300,000. Subsequently,
the mailer appealed the investigative findings to the Pricing Classification Service
Center (PCSC), and appeal officials reduced the deficiency to less than a quarter of the
original assessment because the mailer proved they used a Move Update exempt,
alternative address format for the majority of their mailings. For the remaining mailings,
although the mailer provided support to confirm using the National Change of Address
Linkage System (NCOALink) to identify address changes, the mailer was unable to




                                            5
Move Update Program and Investigations                                                             SA-AR-10-001



provide documentation to confirm they updated their mailing lists based on the NCOALink
data.

Although alleged, we did not find that the Postal Inspection Service targeted large
mailers for investigations, as seven of the 21 cases reviewed did not involve large-
volume mailers. To obtain leads, the Postal Inspection Service (1) monitored large
volumes of RTS mail identified through Postal Automated Redirection System (PARS)
and Remote Performance Diagnostic System (RPDS) reports, (2) conducted mail
observations, (3) analyzed samples of mailpieces through the National Customer
Support Center (NCSC), and (4) used Postal Service employee tips. During our audit,
the Postal Inspection Service established standard procedures for evaluating
prospective cases, to include guidance for intercepting RTS mail, obtaining mail covers,
and conducting NCOA analysis.

Once inspectors established the leads, they did not use PARS to determine revenue
deficiencies in their investigations. Therefore, although previous audit work4 identified
problems with the PARS system (which the Postal Inspection Service used to identify
potential non-compliant mailers), it did not have any impact on assessments to mailers.5

Also, we found no indication that inspectors conducted themselves inappropriately
during investigations. However, we found that revenue deficiencies were not always
calculated correctly. Additionally, we question whether the use of law enforcement
personnel for these administrative cases was the most economical method of resolving
this compliance issue.

Calculation of Revenue Deficiencies

Mailers expressed concern with the accuracy of revenue deficiency calculations and we
found that inspectors did not always calculate revenue deficiencies consistently and
correctly, and management did not always conduct appropriate reviews of revenue
deficiency assessments.6 Specifically, revenue deficiency calculations for three of 21
investigative cases we reviewed contained errors. These errors resulted in about
$342,152 in overstated revenue deficiency assessments to the mailers. For example,
we reviewed two case files in which the inspectors calculated the revenue deficiencies
using a 13-month timeframe instead of 12 months in accordance with their standard
practices. Also, one case included mailings that used the exempted alternative address
format.

Two of these errors (totaling $306,781) were corrected during the appeals process.
However, the remaining $35,371 error was not identified and corrected during the
4
  U.S. Postal Service Office of Inspector General (OIG) report titled Address Quality (Report Number IS-AR-09-007,
dated July 30, 2009).
5
  Mailers also alleged the Postal Inspection Service used Intelligent Mail Barcode (IMB) to target large mailers;
however, for the cases reviewed, we did not find any indications the IMB was used.
6
  Postal Service Management Instruction, DM-140-2008-1, Assessing and Collecting Deficiencies in Postage or Fees,
May 27, 2008.




                                                        6
Move Update Program and Investigations                                         SA-AR-10-001



appeals process. These overstated revenue deficiencies occurred because the Postal
Inspection Service and Postal Service did not establish mandatory comprehensive
training for personnel responsible for conducting Move Update investigations and
evaluating revenue deficiency reports. See Appendix B for our detailed analysis of this
topic.

We recommend the chief postal inspector and the vice president, Business Mail Entry
and Payment Technologies:

     3. Establish mandatory comprehensive training for responsible personnel to
        ensure revenue deficiencies are appropriately assessed.

We recommend the finance manager, Western Area:

     4. Review the overstated revenue deficiency to determine whether the amount
        should be reduced.

Management’s Comments

Management partially agreed with recommendation 3 and stated that the management
instruction for assessing and collecting revenue deficiency required clarification.
Management agreed that all responsible personnel should fully understand their roles
and the Move Update process. However, they disagreed that revenue deficiency
calculations for 3 cases contained errors; therefore they did not agree to provide
mandatory comprehensive training.

Management disagreed with recommendation 4 and stated that there were no revenue
calculation errors due to facts and circumstances uncovered during the investigation.
They further stated that postal policy identifies exceptions to the general rule limiting
assessment periods to 12 months.

Evaluation of Management’s Comments

We acknowledge there are exceptions to the 12 month assessment period. However, as
noted in the report, it was not the Postal Inspection Service’s standard practice to
assess revenue deficiencies beyond 12 months. Additionally, based on our review of
the investigative case files, inspectors intended to use a 12 month period but
erroneously calculated 13 months. Furthermore, the PCSC corrected a similar case that
used a 13 month period during the appeals process by reducing the deficiency period to
12 months. Clarifying postal policy for assessing revenue deficiencies and providing
comprehensive training to all responsible personnel would help ensure revenue
deficiency calculations are appropriately assessed.




                                            7
Move Update Program and Investigations                                                                  SA-AR-10-001



Use of Law Enforcement Personnel for Move Update Compliance

We found that the Postal Inspection Service conducted Move Update investigations
although, for the most part, there was no expectation of civil or criminal prosecution.
Postal inspectors reviewed the cases for blatant civil or criminal violations and found
that, in most instances, mailers were not compliant with Move Update requirements.
However, due to insufficient controls over discounts associated with compliance and the
inability to obtain sufficient evidence to support a civil or criminal case, the Postal
Inspection Service expected to resolve most cases administratively. 7 Also, prior
investigations and training materials indicated most mailers believed they were
compliant with Move Update standards.

Of the 21 Move Update investigative cases we reviewed, none were prosecuted civilly
or criminally by a U.S. Attorney’s Office. Only one case was presented to a U.S.
Attorney’s office for civil prosecution; however, the case was settled prior to litigation.
According to the Postal Inspection Service, Move Update investigations have resulted in
approximately $36 million in recoveries to the Postal Service. However, non-law
enforcement personnel could monitor Move Update compliance more economically. In
addition, the use of law enforcement officers to conduct these case interviews could
result in an unfamiliar and unnecessarily intimidating environment for mailers.

We recommend the chief postal inspector:

      5. Limit the use of postal inspectors to Move Update investigations with
         expectations of civil or criminal prosecution.

Management’s Comments

Management disagreed with recommendation 5 and stated that they believe law
enforcement resources used in these investigations were appropriate because their
investigations focused on mailer’s falsely certifying that they used Move Update
standards on their postage statements.

Evaluation of Management’s Comments

We believe law enforcement resources should be focused on mailers that willingly and
knowingly attempt to defraud the Postal Service and where civil or criminal prosecution
is likely. None of the cases we reviewed resulted in civil and criminal prosecution. These
cases could have been evaluated more economically by non-law enforcement
personnel. As noted in the report, prior investigations and training materials indicated
that most cases would likely be resolved administratively.


7
  Training provided to inspectors indicated these cases would most likely be administrative. In addition, two
inspectors stated they would not be comfortable pursuing cases civilly or criminally given their knowledge of internal
controls weaknesses.




                                                           8
Move Update Program and Investigations                                          SA-AR-10-001



Settlement Agreements

Nine of the 21 cases we reviewed resulted in settlements. We reviewed those
settlement agreements to determine how cases were resolved. Our analysis of the nine
cases revealed that two settlement agreements combined issues unrelated to Move
Update, such as a complaint a mailer made against the Postal Service. Using the
settlement process to resolve complaints filed by mailers could discourage them from
raising concerns and impact the Postal Service’s ability to improve service and
customer relationships. Furthermore, mailers may feel compelled to settle to avoid the
negative perception associated with a federal criminal investigation.

In January 2010, the Postal Service established a cross-functional committee of senior
executives, including the chief postal inspector; senior vice president intelligent mail and
address quality; and senior vice president general counsel to establish and implement
an integrated, centralized review process to evaluate revenue deficiency assessments
and ensure consistency throughout the process. Therefore, we are not making any
recommendations regarding the settlement agreement process in this report. See
Appendix B for our detailed analysis of this topic.

The OIG considers management’s comments responsive to all the recommendations.
We view the partial agreement on recommendation 3 and disagreements on
recommendations 4 and 5 as unresolved. However, we do not plan to pursue these
recommendations through the formal audit resolution process.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. Recommendations 1 and 2 should not be closed in
the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments




                                             9
Move Update Program and Investigations        SA-AR-10-001



cc: Thomas G. Day
    Vincent H. Devito
    Randy S. Miskanic
    Helen R. Grant
    Beverly S. Canova
    Sally K. Haring




                                         10
Move Update Program and Investigations                                                             SA-AR-10-001




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Inspection Service protects Postal Service employees and customers,
secures the mail, and safeguards revenue and assets. To help prevent revenue loss,
the Postal Inspection Service conducts investigations of postage and revenue fraud.
They also ensure revenue protection measures are incorporated into new Postal
Service products, systems, and services. In Quarter 1, FY 2009, the Postal Inspection
Service increased investigations of revenue and postage fraud related to the Postal
Service’s Move Update Program.

In FY 2008, the Postal Service generated $56 billion in commercial revenue and has
offered significant discounts since 1997 to mailers who certified they met Move Update
standards. Compliance with these standards reduces the number of mailpieces that
require forwarding or RTS services. In FY 2008, the Postal Service estimated they
handled more than 9 billion pieces of UAA mail at a cost of over $1.5 billion. To comply
with Move Update, mailers are required to compare their address records against
customer-filed change-of-address (COA) orders and make the necessary updates at
least 95 days prior to the mailing. Mailers are required to use an approved Move
Update method to periodically update addresses. The Postal Service offers the
following methods for First-Class and Standard Mail® and two alternative methods for
First-Class Mail® only:

Move Update Methods:

        Address Change Service (ACS) and OneCode ACS®: After mail acceptance, the
         Postal Service notifies mailers of address changes.

      NCOA Link: Provides mailers with periodic COA information.8

      FASTForward Multiline Optical Character Reader: A pre-mailing process that
       allows mailpieces to be updated in-house when checked against the Postal
       Service’s COA database.

        Ancillary Service Endorsement (ASE): Mailers may use an ASE to request a
         hard-copy notification of the addressee’s new address and to tell the Postal
         Service how to handle UAA mail. Mailers may combine ASE with other approved
         Move Update methods.




8
 The NCOALink is a secure dataset of approximately 160 million permanent Postal Service COA records that consists
of the names and addresses of individuals, families, and businesses.




                                                       11
Move Update Program and Investigations                                                             SA-AR-10-001



Alternative Methods – First-Class Mail only:

        99 Percent Accurate: Mailers submit their files directly to the Postal Service for
         processing. If 1 percent or less of the submitted addresses have a COA on file,
         the files are considered Move Update compliant.

        Legal Restraint: Mailers are legally restricted from incorporating Postal Service
         COA information without direct notification from the addressee.

In November 2008, the Postal Service revised Move Update standards to:

        Increase the minimum frequency of Move Update processing from 185 calendar
         days to 95 days prior to the date of mailing.

        Extend the revised Move Update standards to include all Standard Mail9 and
         automation-rate and presort-rate First-Class Mail.

Mailers who enter mail at discounted rates must certify on the postage statement that
they updated the address on each mailpiece within the required timeframe. Additionally,
effective May 2009, mailers must also indicate the Move Update method used on the
postage statement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess internal controls over the Move Update Program and
determine if the Postal Inspection Service conducted Move Update investigations
according to Postal Service policies and procedures.

To accomplish our objectives, we interviewed Postal Service and Postal Inspection
Service officials to gain an understanding of the Move Update Program and related
roles and responsibilities. Additionally, we interviewed mailers and mailer
representatives regarding their concerns for Move Update and related investigations.
We reviewed applicable policies and procedures and assessed internal controls.

We reviewed the Postal Inspection Service’s Move Update investigative cases that had
a revenue deficiency identified as of August 2009.10 Case information was contained in
the Inspection Service Integrated Information System, hard copy case files, and appeal
documents. Furthermore, based on mailer complaints, we:

        Reviewed methodologies used to identify mailers as potentially noncompliant
         with Move Update standards.


9
 Standard Mail includes letters, flats, parcels, and Not Flat-Machinables.
10
  We did not review the three original Move Update cases because they were closed prior to development of the
Postal Inspection Service's Move Update training.




                                                       12
Move Update Program and Investigations                                        SA-AR-10-001



      Analyzed revenue deficiency calculations and supporting documents.

      Reviewed investigative details including jacketing dates, mail observations,
       address analysis, and mailer interviews to support noncompliance with Move
       Update.

      Reviewed settlement and appeal documents.

To quantify revenue at risk, we used Postal Service mail volumes, revenues, and rates,
including presort First-Class letter revenue and volume from the Postal Service’s
published Mailing Services (Marketing Dominant Products) Preliminary Revenue,
Pieces, and Weight by Classes of Mail and Special Services report for FYs 2008 and
2009. See Appendix C for our methodology for determining revenue at risk due to
insufficient internal controls for monitoring and determining Move Update compliance.

We reviewed the Postal Inspection Service’s Move Update training roster to determine
whether responsible personnel received the training and contacted Postal Service
officials who issued Move Update revenue deficiency letters to determine whether they
received related training.

We verified the accuracy of computer-generated data for Move Update case files
through discussions with applicable personnel and comparison of the data with other
supporting documents. As a result, we consider the data sufficiently reliable to support
the opinions and conclusions in this report.

We conducted this performance audit from June 2009 through April 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on April 9 and 16, 2010, and included their
comments where appropriate.




                                            13
     Move Update Program and Investigations                                                   SA-AR-10-001



                                       PRIOR AUDIT COVERAGE

                                          Final
                          Report         Report
    Report Title          Number          Date                          Report Results
Postal Service         IS-AR-09-007      July 30,    The Postal Service does not have consistent
Office of Inspector                       2009       reporting capabilities that provide a reliable
General: Address                                     count of UAA mail. Additionally, there are
Quality                                              systemic issues in PARS pertaining to imaged
                                                     mailpieces as they are processed. Further,
                                                     personnel responsible for handling UAA mail
                                                     were not sufficiently trained. The OIG provided
                                                     – and management agreed to implement – five
                                                     recommendations to improve reporting
                                                     mechanisms and the handling of UAA mail to
                                                     ensure consistent, reliable, and measureable
                                                     counts of UAA.
Postal Service         DR-AR-07-012     August 29,   District officials in the eight areas effectively
Office of Inspector                       2007       managed the delivery address management
General: Address                                     system (AMS). However, opportunities exist for
Management System                                    area officials to implement best management
Information –                                        practices from the New York Metro Area’s New
National Capping                                     York District to improve the quality of AMS data
                                                     to process and deliver the mail. The eight audit
                                                     reports contained 30 recommendations for
                                                     management to implement an AMS quality
                                                     review program with potential savings totaling
                                                     $26.9 million over the next 10 years.
                                                     Management agreed in principle with the
                                                     findings and recommendations but did not
                                                     always agree with the monetary impact.
Laurits R.               Laurits R.     May 2007     The purpose of this study was to provide
Christensen             Christensen                  comprehensive information on the volumes,
Associates, Inc:        Associates,                  characteristics, and costs of processing UAA
Volumes,                    Inc.                     mail and to evaluate proposed Move Update
Characteristics, And                                 rule changes. The Postal Service proposed
Costs of Processing                                  three changes to the address quality
Undeliverable-As-                                    requirements that applied to Move Update. The
Addressed Mail And                                   changes consisted of reducing the minimum
Personal-                                            frequency processing time, eliminating ASEs
Knowledge-                                           with individual hardcopy notifications, and
Required Mail                                        expanding the Move Update requirements to
                                                     other mailings.




                                                     14
     Move Update Program and Investigations                                                 SA-AR-10-001



Postal Service         IS-AR-06-013      June 17,   Existing controls are sufficient to ensure the
Office of Inspector                        2006     overall integrity of the data within the COA
General: Change of                                  system. However, improvements could be
Address –                                           made primarily in the areas of access controls,
Application Control                                 segregation of duties, protection of sensitive
Review                                              information, information security assurance
                                                    documentation, and audit logging.
                                                    Management agreed with the seven
                                                    recommendations to improve the controls of
                                                    the COA system.




                                                    15
Move Update Program and Investigations                                                        SA-AR-10-001



                              APPENDIX B: DETAILED ANALYSIS

Controls over Discounts Associated with Move Update Compliance

Since 1997, the Postal Service has provided mailers with discounts associated with
Move Update compliance. However, it did not develop and implement sufficient internal
controls to determine whether those mailings met Move Update standards until 12 years
later, in April 2009. In our conservative calculation, we identified $304 million in revenue
at risk for FYs 2008 and 2009. We determined revenue was at risk because there was
no assurance that discounts provided were warranted. In addition, because the Postal
Service accepted the mailings, mailers may have perceived they were compliant with
the standards. Internal controls serve as the first line of defense in safeguarding assets
and should provide reasonable assurance that objectives for effectiveness and
efficiency are achieved.11 See Appendix C for our revenue at risk methodology and
calculations.

We also found the Postal Service does not use clear and consistent standards
regarding tolerance levels to evaluate Move Update compliance. Specifically, in April
2009, the Postal Service established the PBV process and began applying a 30 percent
tolerance for mailpieces that did not meet Move Update standards at acceptance. For
mailings that fail PBV, the Postal Service accepts the mailings; however, effective
January 2010, the Postal Service began charging mailers 7 cents for each mailpiece in
excess of the 30 percent tolerance. The PBV process uses COA information from the
NCOALink to assess mailings. See Appendix D for a flow chart depicting the flow of COA
information from the Change of Address Record Server (CARS) to MERLIN. See
Appendix E for a flow chart of the PBV process.

Since 2008, the Postal Inspection Service has been conducting its Move Update
initiative, which determines Move Update compliance after mail acceptance. To
determine Move Update compliance, inspectors observed and analyzed RTS mail,
reviewed mailing records, and interviewed mailers. If mailers were deemed
noncompliant during these investigations, the Postal Service assessed mailers for 100
percent of the discounts taken, without regard to the 30 percent tolerance. This is
inconsistent with the standards used at acceptance. A mailing could pass PBV at
acceptance, but still be subject to a revenue deficiency resulting from a subsequent
investigation for noncompliance, regardless of the extent of the actual damage to the
Postal Service.

Additionally, the Postal Regulatory Commission (PRC) expressed confidence that if
mailers can demonstrate their good faith attempt to comply with Move Update
requirements, only the Move Update Assessment Charge would apply.12 However, the


11
  GAO Standards for Internal Controls in the Federal Government, November 1999.
12
  PRC, Order Reviewing Adjustment and Classification Changes Related to Move Update Assessments, Order No.
348, Docket No. 2010-, 1 November 25, 2009.




                                                    16
Move Update Program and Investigations                                                        SA-AR-10-001



Postal Service stated they reserved the right to use audits or other procedures to verify
compliance with Move Update standards and additional postage may be assessed.13

To complicate matters further, if a mailer enters into settlement negotiations with the
Postal Service, other items are considered in determination of final liability, including
actual damages, mailer intent, and goodwill. For example, one mailer was assessed the
First-Class single-piece rate for all mailings mailed within a 12-month period, which
resulted in a multi-million revenue deficiency. However, the revenue deficiency was
reduced to a fraction of the original assessment during the settlement process to better
reflect damages to the Postal Service.

Postal Service and Postal Inspection Service officials consider the tolerance level used
at acceptance unrelated to the methodology used in investigations. According to the
Postal Service, the PBV process used at acceptance does not establish compliance or
noncompliance with Move Update standards; it is a tool to test mailings and is designed
to facilitate mail acceptance.14 However, although officials indicated to us that these are
separate and unrelated standards, the Postal Service initially named the charges
related to the PBV process a “Move Update Noncompliance Charge” and subsequently
changed the name to a “Move Update Assessment Charge.” The Postal Service also
announced to mailers that they were implementing the PBV process to assist them with
improving the quality of their addresses and obtaining the optimum results from their
compliance efforts. Mailers have expressed that they are unclear about the conditions
that would subject a mailing to Move Update assessment charges at acceptance and
those that would subject it to the significantly higher penalties associated with a finding
of noncompliance as a result of an investigation.

Additionally, the Postal Service has submitted changes to the PRC that included
clarifying the difference between the Move Update assessments at mail acceptance and
subsequent revenue deficiency assessments resulting from investigations. As a result,
the PRC advised the Postal Service to take the necessary steps to ensure the
standards regarding whether a mailpiece will pass or fail are plainly stated and clearly
known to mailers.

We found the Postal Service did not establish sufficient internal controls, such as a
comprehensive process to assess mail for Move Update compliance at acceptance. As
a result, we identified significant Postal Service revenue at risk. Furthermore, the Postal
Service is at risk of losing significant future revenue because mailers are threatening to
seek alternative methods of communicating with their customers. Also, the Postal
Service’s customer service goals are adversely affected.




13
  Move Update Advisement Policy, updated August 2009.
14
  PRC, Order Reviewing Adjustment and Classification Changes Related to Move Update Assessments, Order No.
348, Docket No. 2010-1 November 25, 2009.




                                                    17
Move Update Program and Investigations                                        SA-AR-10-001



Move Update Investigations

In 20 of 21 Move Update investigative cases we reviewed, we found that inspectors
established that mailers were not in compliance with the Move Update process. For one
of the 21 cases, the Postal Inspection Service concluded the mailer was noncompliant
and the Postal Service assessed 100 percent of the discounts taken for a 12-month
period, resulting in a revenue deficiency of over $300,000. The mailer appealed the
case and the PCSC reduced the amount to less than a quarter of the original
assessment because the mailer used an alternative address format for the majority of
their mailings, which were exempt from Move Update requirements. For the remaining
mailings, the mailer provided support to confirm they used the NCOALink to identify
address changes but was unable to provide documentation to confirm they updated
their mailing lists.

Selection of Mailers for Investigation

We reviewed the Postal Service’s methodology for identifying potential noncompliant
mailers and we did not find they targeted large mailers for investigations. Large-volume
mailers mail over 10 million pieces annually and seven of the 21 cases reviewed
involved mailers that did not fit in this category. To identify potential noncompliant
mailers, the Postal Inspection Service monitored large volumes of RTS mail identified
through PARS and RPDS reports, conducted mail observations, analyzed samples of
NCSC mailpieces, and used Postal Service employee tips. Although inspectors used
PARS to identify potentially noncompliant mailers, they did not use it to determine
revenue deficiencies resulting from Move Update investigations. Also, mailers alleged
the Postal Service used IMB to target large-volume mailers; however, for the cases
reviewed, we did not find any indications the Postal Inspection Service used the IMB.

Conduct of Postal Inspectors

We did not find that postal inspectors were inappropriate in their conduct with regard to
Move Update investigations. Most mailers we interviewed stated that inspectors
appropriately identified themselves and the purpose of their visits.

We contacted the customer who alleged that postal inspectors did not appropriately
identify themselves during their Move Update investigation. However, the customer
informed us the matter was settled and considered closed and, as such, declined to
provide additional information. We also reviewed the Postal Inspection Service’s internal
review regarding this allegation, which found that postal inspectors properly identified
themselves and signed in at the facility.

Calculations of Revenue Deficiencies

Postal Inspection Service personnel did not always calculate revenue deficiencies
consistently and correctly and Postal Service management did not always conduct




                                            18
Move Update Program and Investigations                                                                 SA-AR-10-001



appropriate reviews of revenue deficiency assessments as required. Specifically,
revenue deficiency calculations for three of 2115 investigative cases we reviewed
contained errors. These errors resulted in about $342,152 in overstated revenue
assessments to the mailers. For example:

        Two calculations included revenue deficiencies for 13 months rather than the 12
         months the inspectors used as a standard practice. The Postal Service may
         review previous mailings to calculate the assessment no more than 12 months
         before the date the deficiency was discovered.16 In both cases, based on the
         case documentation, it appears the Postal Inspection Service intended to assess
         12 months, but erroneously calculated 13 months. These calculation errors
         resulted in a minimum of $71,894 in overstated assessments to the mailers. In
         one of the cases, the PCSC corrected the assessment error during the appeal
         and reduced the deficiency assessment period to 12 months.

      One calculation included mailings that used an alternative address format, which
       are exempt from Move Update requirements.17 This error resulted in about
       $270,258 in overstated assessments to the mailer.18 See chart below for
       overstated revenue deficiency calculations and the results:

                               Overstated Revenue Deficiencies
                                        Original
             Appeal Case                                         Amount
                                       Deficiency                                           Result
               Number                                           Overstated
                                       Calculation
                                                                                          Partially
           919838/922515                 $424,006                 $35,371                corrected
                                                                                      during appeal19
                                                                                         Corrected
                 931076                   544,102                  36,523
                                                                                       during appeal
                                                                                         Corrected
                 931582                   330,629                270,25820
                                                                                       during appeal




15
   The OIG issued subpoenas for three of the 21 cases reviewed. However, the OIG was not actively involved in the
cases.
16
   Management Instruction, Assessing and Collecting Deficiencies in Postage or Fees, May 27, 2008.
17
   Domestic Mail Manual, Mailing Standards of the United States Postal Service, updated April 5, 2010, states that
except for mail bearing an alternative address format, addresses used on pieces claiming First-Class Mail presorted
prices must meet Move Update standards.
18
   The amount is based on calculations from information provided in the mailer’s appeal that claimed about 82
percent of the assessed mailings contained alternative addresses.
19
   During the appeal process this amount was reduced to $403,722 due to a data entry error. However, the additional
13-month discrepancy was not identified during the appeals process.
20
   The revenue deficiency amount the OIG determined varied from the amount identified by the PCSC. The OIG
based calculations for alternative addresses on 81.74 percent of 4,544,757 mailpieces identified in the investigation.
The PCSC calculations were based on approximately 4,482,642 mailpieces.




                                                          19
Move Update Program and Investigations                                                                SA-AR-10-001



This occurred because the Postal Inspection Service and Postal Service did not
establish mandatory comprehensive training for personnel responsible for conducting
Move Update investigations and evaluating revenue deficiency reports. Specifically:

        Three of 16 (19 percent) inspectors who conducted Move Update investigations
         did not complete the Postal Inspection Service Move Update training course and
         one individual without training was involved in a case with a calculation error.21

        Three of seven (43 percent) Postal Service personnel who signed revenue
         deficiency letters did not complete any Move Update training and two individuals
         without training were involved in cases with calculation errors.22

Use of Law Enforcement Personnel for Move Update Compliance

The Postal Inspection Service conducted Move Update investigations, although there
was minimal expectation for civil or criminal prosecution. Postal inspectors reviewed
cases for blatant civil or criminal violations and found that, in most instances, mailers
were not compliant with Move Update requirements. However, they expected to resolve
the cases administratively. The cases we reviewed were resolved administratively for
various reasons, including insufficient internal controls and inability to obtain sufficient
evidence to support a civil or criminal case.

Further, only one of the 21 cases we reviewed was presented to a U.S. Attorney’s office
and this case was settled before litigation. Additionally, the Postal Inspection Service’s
Los Angeles division conducted an internal review regarding Move Update compliance
and protection of Postal Service revenue that identified serious internal control
deficiencies, which extended beyond noncompliance by mailers and included culpability
by the Postal Service. These issues could have hindered the Postal Inspection
Service’s ability to pursue cases civilly or criminally. Additionally, non-law enforcement
personnel could monitor Move Update compliance more economically than postal
inspectors, who receive Law Enforcement Availability Pay and other benefits. To ensure
efficient use of law enforcement personnel, the Postal Service should limit the use of
postal inspectors to Move Update investigations with more potential for civil and criminal
prosecution. According to the Postal Inspection Service, since January 2010, they have
decided to close 62 cases. Of the 62 cases, 22 were referred to the local BMEU for
appropriate action, 30 were closed with no referral, and 10 are pending a BMEU referral
decision prior to closure.




21
   The Postal Inspection Service provided an optional 2-day Move Update training course for inspectors. Additionally,
a former postal inspector stated that, for Move Update investigations, he needed more training to better understand
the Move Update process.
22
   Management Instruction, DM-140-2008-1, Assessing and Collecting Deficiencies in Postage or Fees, May 27,
2008, states that managers of BMEUs, district finance managers, and postmasters are responsible for evaluating
revenue deficiency reports and authorizing revenue assessment letters.




                                                         20
Move Update Program and Investigations                                       SA-AR-10-001



Settlement Agreements

Nine of the 21 cases reviewed resulted in settlement agreements. Our analysis of the
settlements found that two settlement agreements combined issues unrelated to Move
Update. One of the two settlements included a complaint made by the mailer against
the Postal Service. Using the settlement process to resolve complaints filed by mailers
could discourage them from raising concerns and impact the Postal Service’s ability to
improve service and customer relationships.

In June 2009, the Postal Service established a cross-functional committee of senior
executives to establish and implement an integrated, centralized review process to
evaluate revenue deficiency assessments and ensure consistency throughout the
process. The committee includes the chief postal inspector; senior vice president,
intelligent mail and address quality; and senior vice president, general counsel.
Therefore, we are not making any recommendations regarding the settlement
agreement process in this report.




                                           21
Move Update Program and Investigations                                                                  SA-AR-10-001



                              APPENDIX C: NON-MONETARY IMPACT

The Postal Service provided discounts without fully assessing whether mailings were
compliant with Move Update standards. As a result, the revenue at risk was the
discounted postage provided to mailers. As a conservative approach, we identified the
discounted revenue and made adjustments for exempt alternative addresses. To
determine the discounts provided, we subtracted the adjusted discount revenue from
the 42 cents single-piece postage. 23 This is the amount that would have been paid
without the discounts. From the calculated discounts, we identified the greatest risk for
Move Update noncompliance by applying the percentage of mail volume that failed the
PBV Move Update test in excess of the 30 percent tolerance.24 To quantify the revenue
at risk, we:

      Identified the volume and discount revenue for First-Class presort letters for FYs
        2008 and 2009.25

      Subtracted 10 percent from the total volume and revenue to account for exempt
       alternative addresses, which are not required to meet Move Update standards.26

        Determined the single-piece postage that would have been paid without a
         discount by multiplying the single-piece rate (42 cents) by the adjusted First-
         Class presorted letter volume for FYs 2008 and 2009.

      Determined the discounted postage by subtracting the adjusted First-Class
       presorted letter revenue for FYs 2008 and 2009 from the calculated single-piece
       postage.

      Calculated the greatest risk for Move Update noncompliance by multiplying the
       percentage of First-Class Mail volume that failed the Move Update test in excess
       of the 30 percent tolerance (4.7 percent).27

Based on our analysis as shown in the table below, we identified $304,332,943 in
revenue at risk for FYs 2008 and 2009.



23
  We used a conservative 42 cents single-piece rate because the average First-Class single-piece letter
rate for FYs 2008 and 2009 were $0.428 and $0.443 respectively.
24
   Within the MERLIN® sample, the Move Update test identified mailpieces that did not have updated addresses,
including those with names and addresses that did not match COA orders filed between 95 days and 18 months
before the acceptance date.
25
   Mailing Services (Market Dominant Products) Preliminary Revenue, Pieces, and Weight by Class of Mail and
Special Services for FY 2009 Compared with the Corresponding Period of FY 2008
26
   The Postal Service did not have the actual amount of alternative addressed mail attributable to First-Class presort
letter revenue but indicated the amount is negligible. We used 10 percent as a conservative estimate for our
calculations.
27
   Testing results from the United States Postal Service Notice of Market Dominant Price Adjustment and
Classification Changes, Appendix B1, filed October 15, 2009.




                                                          22
Move Update Program and Investigations                                  SA-AR-10-001




                             Revenue at Risk Calculations
    Fiscal Years 2008 and 2009 First-Class Presort Letter Data and Adjustments
                                                    Volume           Revenue
Subtract 10% from total volume and revenue 93,187,574,641        $31,944,149,129
to account for alternative addresses             9,318,757,464      3,194,414,913
Totals adjusted for alternative addresses       83,868,817,177   $28,749,734,216
                                  Single-Piece Postage
Multiply the volume by the                     83,868,817,177
single-piece rate (42 cents)                   $          0.42
             Single-piece postage                               $35,224,903,214
                                      Revenue at Risk
Subtract First-Class Mail presort letter
revenue from single-piece postage              $35,224,903,214
                                                 28,749,734,216
              Postage discounts                                 $6,475,168,998
Multiply Postal Service discounts by the
First-Class Move Update testing results that
exceeded the 30% tolerance threshold           $6,475,168,998
(4.7%)                                                    .047
               Revenue at Risk                                     $304,332,943




                                          23
Move Update Program and Investigations                                 SA-AR-10-001



                                         APPENDIX D: CHANGE OF ADDRESS RECORD




                                                          24
Move Update Program and Investigations                          SA-AR-10-001



                         APPENDIX E: PERFORMACE-BASED VERIFICATION PROCESS




                                                  25
Move Update Program and Investigations                     SA-AR-10-001




                       APPENDIX F: MANAGEMENT’S COMMENTS




                                         26
Move Update Program and Investigations        SA-AR-10-001




                                         27
Move Update Program and Investigations        SA-AR-10-001




                                         28
Move Update Program and Investigations        SA-AR-10-001




                                         29
Move Update Program and Investigations        SA-AR-10-001




                                         30
Move Update Program and Investigations        SA-AR-10-001




                                         31
Move Update Program and Investigations        SA-AR-10-001




                                         32
Move Update Program and Investigations        SA-AR-10-001




                                         33
Move Update Program and Investigations        SA-AR-10-001




                                         34
Move Update Program and Investigations        SA-AR-10-001




                                         35
Move Update Program and Investigations        SA-AR-10-001




                                         36
Move Update Program and Investigations        SA-AR-10-001




                                         37
